 DEPARTMENT OF HOMELAND SECURITY

     Office of Inspector General


      Major Management Challenges
    Facing the Department of Homeland
                 Security




      (Excerpts from the FY 2005 DHS
      Performance and Accountability
                   Report)



              Office of Audits
OIG-06-14                    December 2005
                                                                         Office of Inspector General

                                                                         U.S. Department of Homeland Security
                                                                         Washington, DC 20528




                                              Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
DHS oversight responsibilities to promote economy, effectiveness, and efficiency within the
department.

The attached report presents the major management challenges facing the Department of Homeland
Security and also was included in DHS’ FY 2005 Performance and Accountability Report. As
required by the Reports Consolidation Act of 2000, we update our assessment of management
challenges annually.

It is our hope that this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.




                                              Richard L. Skinner
                                              Inspector General
Report Distribution




Department of Homeland Security

Secretary
Deputy Secretary
Executive Secretariat
Chief of Staff
General Counsel
Under Secretary, Management
Assistant Secretary, Public Affairs
Assistant Secretary for Policy
Assistant Secretary, Legislative Affairs
Chief Financial Officer
Chief Information Officer
Chief Security Officer

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Program Examiner

Congress

Committee on Homeland Security and Governmental Affairs
United States Senate

Committee on Homeland Security
United States House of Representatives

Congressional Oversight and Appropriations Committees, as appropriate
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to DHS Office of
Inspector General/MAIL STOP 2600, Attention: Office of Investigations –
Hotline, 245 Murray Drive, SW, Building 410, Washington, DC 20528; fax
the complaint to (202) 254-4292; or email DHSOIGHOTLINE@dhs.gov. The
OIG seeks to protect the identity of each writer and caller.
